OIG Investigative Reports Press Release Fresno CA., 03/26/2013 -  Corcoran Resident Arrested for Student Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
FOR IMMEDIATE RELEASE
Tuesday, March 26, 2013
www.justice.gov/usao/cae/
Docket #:1:13-cr-00099-AWI-BAM
CONTACT: LAUREN HORWOOD
PHONE: 916-554-2706
usacae.edcapress@usdoj.gov
CORCORAN RESIDENT ARRESTED FOR STUDENT AID FRAUD
Fresno, Calif. — Vera Reed, 55, of Corcoran, was arrested today on an indictment
previously returned by a federal grand jury, United States Attorney Benjamin B. Wagner
announced.
The indictment charges Reed with financial aid fraud and theft of government
property, and alleges that she falsely claimed to be a high school graduate so she could
obtain federal Pell Grants totaling $14,812 to attend Fresno City College and West Hills
College in Lemoore. Reed will be arraigned by U.S. Magistrate Judge Sheila K. Oberto on
March 27, 2013, at 1:30 p.m.
This case is the product of an investigation by the U.S. Department of Education,
Office of Inspector General. Assistant United States Attorney Mark J. McKeon is prosecuting
the case.
If convicted, Reed faces a maximum statutory penalty for financial aid fraud of five
years in prison, and the maximum statutory penalty for theft of government property of 10
years in prison. Any sentence, however, would be determined at the discretion of the court
after consideration of any applicable statutory factors and the Federal Sentencing
Guidelines, which take into account a number of variables.
The charges are only allegations, and the defendant is presumed innocent until and
unless proven guilty beyond a reasonable doubt.
####
Top
Printable view
Last Modified: 03/28/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov